4
|

C@OCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B gists contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 20-1184

KEE FOOD, INC., ET AL.,
Petitioners,
v.
STATE OF LOUISIANA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the OPPOSITION TO PETITION
FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 2289 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 28th day of May, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

GENERAL WOTARY-State of Nebraska A / v Chk
RENEE J. GOSS 9. ‘.

Notary Public Affiant

41052
